                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF mSPECTOR GENERAL

   .                                               OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: I08010005                                                                   Page 1 of 1



         We opened this investigation based on allegations1 that there had been fraud and kickbacks
         involving a subaward2 of an NSF awardee3. We reviewed documentation and information
         provided by the awardee and determined that the fraud, kickbacks and misappropriation of grants
         funds was perpetrated by an employee4 of the sub-awardee. The awardee has taken corrective
         action5 and implemented new policies and procedures to ensure better oversight and internal
         controls of sub-awardees. The awardee provided an appropriate refund/credit6 on this matter.7




NSF 01G Form 2 (1 1/02)
